<html>
<title> - VIRGIN ISLANDS, GUAM, AND NORTHERN MARIANA ISLANDS ISSUES</title>
<body><pre>[House Hearing, 104 Congress]
[From the U.S. Government Publishing Office]



 
                                  VIRGIN ISLANDS, GUAM, AND NORTHERN
                                       MARIANA ISLANDS ISSUES            
  ______________________________________________________________________________________________   
  
                                             HEARING
                                                
                                             BEFORE THE
                                              
                              SUBCOMMITTEE ON NATIVE AMERICAN & INSULAR
                                            
                                             AFFAIRS
                                
                                              OF THE
                                               
                                           COMMITTEE ON
                                            
                                         NATURAL RESOURCES
                                          
                                      HOUSE OF REPRESENTATIVES
                                      
                                     ONE HUNDRED FOURTH CONGRESS
                                     
                                           SECOND SESSION
                                             
                                                 ON
                                                 
                                VIRGIN ISLANDS AND GUAM ISSUES
               DISPOSITION OF WATER ISLAND IN THE VIRGIN ISLANDS, RESOLUTION
                     433, OF THE GUAM LEGISLATURE, AND CERTAIN PROVISIONS
                                        OF H.R. 3721
                                        
                                 JULY 24, 1996-WASHINGTON, DC                             
                         
                                      ___________________
                                      
                         VIRGIN ISLANDS AND NORTHERN MARIANA ISLANDS
                                            ISSUES
                                            
                     H.R. 3634 (EXECUTIVE OFFICIALS ABSENCE IN VIRGIN ISLAND), H.R.
                        3635 (AUTHORITY TO MANAGE CHRISTIANSTED NATIONAL HISTORIC
                           SITE) AND FEDERAL-COMMONWEALTH OF THE NORTHERN
                  MARIANA ISLANDS INITIATIVE ON LABOR, IMMIGRATION, LAW ENFORCEMENT,
                               AND RELATED LEGISLATIVE REFORMS                       
                                      
                                 JUNE 26, 1996-WASHINGTON, DC      
                                      
                                      ______________      
                              
                                     Serial No. 104-94  
                                                                       
                                                                   
                Printed for the use of the Committee on Natural Resources
                
                
                
                
                

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               U.S. GOVERNMENT PRINTING OFFICE
                               
  27-245 cc                           WASHINGTON : 1996
  _____________________________________________________________________________________
  
                     For sale by the U.S. Government Printing Office
                     
    Superintendent of Documents, Congressional Sales Office, Washington, DC 20402

                                 ISBN 0-16-053845-9
                                 
                                 
                                 

 [TEXT NOT AVAILABLE]



</pre></body></html>
